DADE COUNTY FEDERAL CREDIT UNION
1500 NW 107th Ave • Doral, FL 33172
(305) 471-5080 • (800) 299-7147
Fax: (786) 845-3150 • www.dcfcu.org

STUDENT VISA
APPLICATION AND SOLICITATION DISCLOSURE

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

10.65% to 17.90%

Penalty APR and When it Applies

None

Minimum Interest Charge

None

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We do not charge you interest on
purchases if you pay your entire balance by the due date each month.

This APR will vary with the market based on the Prime Rate.

For Credit Card Tips from the
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

Fees
Transaction Fees
• Foreign Transaction Fee

1.50% of each transaction in U.S. dollars

Penalty Fees
• Late Payment Fee
• Over-the-Credit Limit Fee
• Returned Payment Fee

Up to $35.00
Up to $35.00
Up to $35.00

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”
Effective Date. The information about the costs of the card described in this application is accurate as of January 1, 2010. This information may
have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Over-the-Credit-Limit-Fee

Returned Payment Fee
Replacement Card Fee
Statement Copy Fee
Rush Fee

© CUNA MUTUAL GROUP, 2009, ALL RIGHTS RESERVED

$25.00 or the amount of the required minimum payment, whichever is less. In the event you fail to
make a payment on time in any of the six (6) billing cycles following the violation, you will be charged
$35.00 or the amount of the required minimum payment, whichever is less.
$25.00 or the amount of the transaction exceeding your credit limit, whichever is less. In the event you
exceed your credit limit in any of the six (6) billing cycles following the violation, you will be charged
$35.00 or the amount of the required minimum payment, whichever is less, if new balance less any
fees is more than $1.00 over your credit limit.
$25.00 or the amount of the required minimum payment, whichever is less. In the event a payment is
returned in any of the six (6) billing cycles following the violation, you will be charged $35.00 or the
amount of the required minimum payment.
$10.00 per card
$2.00
$25.00

1-1V2DLW01
CCM000
MXC400

